CORRECTED AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 19-7
X
SEILA LAW LLC,
Petitioners,
v.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondents,
X
STATE OF NEW YORK )
COUNTY OF NEW YORK )
1, Marianna lannotta, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:
1 am retained by Counsel of Record for Amicus Curiae Main Street Alliance.
That on the 22" day of January, 2020, I served the within Brief of Main Street
Alliance as Amicus Curiae in Support of Court-Appointed Amicus Curiae in the abovecaptioned matter upon:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
Attorneys for Petitioner
2001 K Street, N.W.
Washington, DC 20005
(202) 223-7300
kshanmugam@paulweiss.com
Noel J. Francisco
Solicitor General
United States Department of Justice
Attorneys, for Respondent
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

Paul D. Clement
Counsel of Record
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
2023895000
paul.clement@kirkland.com
Court-appointed allliCUS' curiae
in support of the judgment

RECEIVED
JAN 2 4 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

by sending three copies of same, addressed to each individual respectively, and enclosed
in a properly addressed wrapper, through the United States Postal Service, by Express
Mail, postage prepaid. An electronic version was also served by email to each individual

.

That on the same date as above, I sent to this Court forty copies and 1 un-bound
copy of the within Brief of Main Street Alliance as Amicus Curiae in Suppori of CourtAppointed Amicus Curiae through the United States Postal Service by Express Mail,
postage prepaid. in addition, the brief has.been submitted through the Court's electronic
. filing system.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed pn this 22nd day of January, 2020.

Sworn to and subscribed be

me this 22nd day of January, 2020.

Elias elendez
Notary Public ate of New York
No. 24-47996 1
Qualified in Ki gs County
Commission Expires Aug. 31, 2021

293793

COUNSEL PRESS
(800) 274.3321 • (800) 359-6859
www,coutiscipress,cont

